No. 19-524
In the

Supreme Court of the United States
Roque De La Fuente, aka Rocky,
Petitioner,
v.
Alex Padilla, California
Secretary of State, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

BRIEF OF AMICI CURIAE PROFESSORS
OF POLITICAL SCIENCE AND HISTORY IN
SUPPORT OF PETITIONER

A licia I. Dearn, Esq.
Counsel of Record
231 South Bemiston Avenue,
Suite 850
Clayton, MO 63105
(314) 526-0040
aliciadearn@bellatrixlaw.com
Counsel for Amici Curiae

292830

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF
	ARGUMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I. 	CERTIORARI IS DESIRABLE BECAUSE
T H ERE IS CON FUSION A MONG
LOWER COURTS OVER WHETHER
	THE APPLY THE USAGE TEST . . . . . . . . . . . 7
II. 	THE NINTH CIRCUIT ERRONEOUSLY
STATED TH AT BECAUSE MINOR
PARTY PRESIDENTIAL CANDIDATES
H A V E A P P EA R E D O N T H E
CALIFORNIA BALLOT, THEREFORE
IT IS NOT SIGNIFICANT THAT NO
INDEPENDENT PRESIDENTIA L
CA N DI DATE H A S QUA L I F IE D
SINCE 1992  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

ii
TABLE OF CITED AUTHORITIES
Page
CASES:
American Party v. Jernigan,
424 F.Supp. 943 (e.d. Ark. 1977) . . . . . . . . . . . . . . . . . 8
Arutunoff v. Oklahoma State Election Board,
687 F.2d 1375 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Bergland v. Harris,
767 F.2d 1551 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . .  8-9
Bradley v Mandel,
449 F. Supp. 983 (1978) . . . . . . . . . . . . . . . . . . . . . . . . 10
Citizens to Establish a Reform Party in
Arkansas v. Priest,
970 F. Supp. 690 (e.d. Ark. 1996) . . . . . . . . . . . . . . . . . 8
Coffield v. Kemp,
599 F.3d 1276 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Cowen v. Raffensperger,
1:17cv-4660 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Dart v. Brown,
717 F.2d 1491 (1983) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
De La Fuente v. Hobbs,
Case no. 2:16cv-2419 (June 11, 2019) . . . . . . . . . . . . . 11

iii
Cited Authorities
Page
Graveline v. Johnson,
336 F. Supp. 3d 801 (e.d. Mi. 2018), affirmed,
747 Fed. App’x 408 (6th Cir. 2018) . . . . . . . . . . . . . . . 10
Green Party of Georgia v. Kemp,
171 F. Supp. 3d 1340 (n.d. 2016) . . . . . . . . . . . . . . . . . . 9
Green Party of Georgia v. Kemp,
674 F. App’x 974 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . 9
Green Party of Tennessee v. Hargett,
882 F. Supp. 2d 959 (Feb. 3, 2012)  . . . . . . . . . . .  14, 15
Green Party of Tennessee v. Hargett,
700 F.3d 816 (Nov. 30, 2012) . . . . . . . . . . . . . . . . .  14, 15
Green Party of Tennessee v. Hargett,
953 F. Supp. 2d 816 (June 17, 2013) . . . . . . . . . . .  14, 15
Green Party of Tennessee v. Hargett,
767 F.3d 533 (Aug. 22, 2014) . . . . . . . . . . . . . . . . .  14, 15
Green Party of Tennessee v. Hargett,
3:11cv-692 (Aug. 17, 2016)  . . . . . . . . . . . . . . . . . .  14, 15
Green Party of Tennessee v. Hargett,
16-6299 (May 11, 2017) . . . . . . . . . . . . . . . . . . . . .  14, 15
Lee v. Keith,
463 F.3d 763 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

iv
Cited Authorities
Page
Libertarian Party of North Dakota v Jaeger,
659 F.3d 689 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Libertarian Party of Arkansas v. Thurston,
4:19cv-214 (July 3, 2019) . . . . . . . . . . . . . . . . . . . . . . . . 8
Libertarian Party of Florida v. State of Florida,
710 F.2d 790 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Libertarian Party of Ohio v. Blackwell,
462 F.3d 579 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Mandel v. Bradley,
432 U.S. 173 (1977)  . . . . . . . . . . . . . . . . . . . . . . . 6, 9, 10
McLain v. Meier,
637 F.2d 1159 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Nader v. Cronin,
620 F.3d 1214 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . 13
New Alliance Party of Alabama v. Hand,
933 F.2d 1568 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Norman v. Reed,
502 U.S. 279 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Rockefeller v. Powers,
917 F. Supp. 155 (e.d. N.Y.), affirmed, 78 F.3d 44
(2d Cir., 1996) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

v
Cited Authorities
Page
Spreckles v Graham,
194 C. 516 (1924)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Stein v. Chapman,
774 F. 3d 689 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Storer v. Brown,
415 U.S. 724 (1974)  . . . . . . . . . . . . . . . . . . . . . . . passim
OTHER AUTHORITIES:
California Session Laws 1891, ch. 130 . . . . . . . . . . . . . . 16
Election Law Journal article, “How Many Parties
Ought to be on the Ballot?”, page 170, in Volume 5,
number 2, 2006  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
George E. Mowry, The California Progressives
(1951: U.C. at Berkeley Press)  . . . . . . . . . . . . . . . . .  17
Report of Registration, January 1964,
“Preface” page . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Richard Scammon, Rhodes Cook, America Votes . . . . 18
Svend Petersen, A Statistical History of the
American Presidential Elections by (1963:
Frederick Unger Publishing Co.) . . . . . . . . . . . . . . . 18

1
INTEREST OF AMICI CURIAE1
Amici are distinguished professors of political science
and history who specialize in the study of American
political history, and, in-particular are experts on the
two-party system and the burden that ballot access and
petitioning laws place on minor political party, minority
voters and their candidates, and independent candidates.
Amici wish to bring to the Court’s attention the
extensive political and legal history amongst the various
states leading to highly inconsistent results, confusion,
ballot exclusion, and undue burdens on independent
candidates. The history shows that inconsistences at times
within the same state.
These Amici are:
1.	Omar H. A li, Ph.D., Columbia University;
Professor of African American and African
Diaspora Studies and History, University of
North Carolina-Greensboro. Prof. Ali’s teaching
and research include the topic of independent
black political movements in U.S. Prof. Ali is the
biographer of the first black female candidate
1. Amici support Petitioner. This brief was not authored, in
whole or in part, by counsel for either party, and no such counsel
or party made a monetary contribution intended to fund the
preparation or submission of this brief. Costs for printing and
filing of this brief were paid for by the Coalition for Free and
Open Elections, which is a wholly non-affiliated organization to
any party to this case. The parties have been given at least 10
days notice of amici’s intention to file and have consented to the
filing of this brief.

2
to make ballots of all 50 states (Lenora Fulani).
He is the author of In the Balance of Power:
Independent Black Politics and Third-Party
Movements in the U.S.
2.

John C. Berg, Ph.D., Har vard University;
Professor of Government, Emeritus, Suffolk
University; Past President, New England
Political Science Association. Prof. Berg has
authored numerous publications featuring
research on third or minor political parties.

3.

Steven R. Brown, Ph.D., University of Missouri;
Professor of Political Science, Emeritus, Kent
State University. Prof. Brown is the author
of over 100 publications on policy, political
psychology, other topics. He has won awards from
the International Society of Political Psychology,
International Society for the Scientific Study
of Subjectivity, Kappa Tau Alpha, others for
contributions to science in many disciplines and
contributions to the scientific study of subjectivity.

4.

Adam Sander Chamberlain, Ph.D., University of
North Carolina-Chapel Hill; Associate Professor
of Political Science and Chair, Department of
Political Science, Coastal Carolina University.
Prof. Chamberlain’s research and teaching
interests include political parties (especially
minor parties).

5.	Charles E. Cottle, Ph.D., Kent State University;
Professor of Political Science, Emer itus,
University of Wisconsin-Whitewater. Prof.

3
Cottle’s research interests are primarily in
political philosophy. He is the author of numerous
academic articles on diverse topics. He is the
founding co-editor of Wise Guys, an online
journal of scholarship and culture.
6.

Jonathan Earle, Ph.D., Princeton University;
Dean of the Roger Hadfield Ogden Honors
College and Professor of History, Louisiana State
University; author of book on the politics of the
Free Soil Party and the Democratic schismatics
that led to the antislavery Republican Party in
the 1850s.

7.

J. David Gillespie. Ph.D., Kent State University;
Dana Professor of Political Science, Emeritus,
and former college Vice President for Academic
Affairs, Presbyterian College; retired political
science faculty member, College of Charleston and
The Citadel; author of Challengers to Duopoly:
Why Third Parties Matter in American TwoParty Politics and Politics at the Periphery:
Third Parties in Two-Party America.

8.

J. Chris Grant, Ph.D., University of Georgia,
Professor and Chair, Department of Political
Science, Mercer University. Fulbright Professor,
Moldova (2006). Prof. Grant’s research and
teaching specialties include electoral politics.

9.

James (Jim) Hedges, Master’s, University of
Maryland; career veteran of Marine Corps and
Marine Band. Mr. Hedges is a prolific published
author on the topics of politics and other related

4
fields. He is the Editor of Prohibition Party
Newsletter. Mr. Hedges serves as Secretary of
Partisan Prohibition History Society. Mr. Hedges
was the Prohibition Party presidential nominee
in 2016.
10. Booker T. Ingram, Ph.D., Ohio State University;
Dana Professor of Political Science and Director
of Diversity and Inclusion, Presbyterian College.
Prof. Ingram teaches in areas of American
politics and political theory. His research
focuses on African American politics; media and
politics; and democratic theories, practices, and
institutions.
11. William P. Kreml, J.D., Northwestern University,
Ph.D., Indiana University, Disting uished
Professor of Political Science, Emer itus,
University of South Carolina. Professor Kreml
is the past principal drafter of first charter of
National Democratic Party. He finished second
as candidate in Green presidential primaries of
2016.
12. Jerome S. Legge, Jr., Ph.D, Emory University;
Professor Emeritus in the School of Public and
International Affairs at University of Georgia;
past service as Associate Provost for Academic
Planning, Associate Dean, and Director of Master
of Public Administration program at UGA. Prof.
Legge’s specializations are in European and
American Public Policy and Holocaust Studies.
13. Jonathan H. Martin, Ph.D., Brandeis University;
Professor of Sociology, Framingham State

5
University. Prof. Martin’s research and writing
interests include progressive and third party
politics.
14. Greg Orman, Kansas entrepreneur and author
of the 2016 book A Declaration of Independents.
Mr. Orman is a contributor to notable national
media in politics, including Real Clear Politics
and others. Mr. Orman was a former independent
candidate for Governor and for Senator of his
state.
15.	Erin S. McAdams, Ph.D., The Ohio State
University; Associate Professor of Political
Science at Presbyterian College. Prof. McAdams
teaches courses related to legal studies,
Constitutional Law, campaigns and elections,
and political parties
16. Scot Sch rau fnagel, Ph.D., Flor ida St at e
University; Professor and Chair in Department of
Political Science at Northern Illinois University.
Among his published research is his well-received
2011 book, Third Party Blues: the Truth and
Consequences of Two-Party Dominance.
17. David Whiteman, Ph.D, University of North
Carolina-Chapel Hill; Professor of Political
Science, Emeritus, at the University of South
Carolina. Prof. Whiteman’s research and teaching
interests include congressional elections, the
use of policy analysis in congressional decisionmaking, and the political impact of documentary
film.

6
INTRODUCTION AND
SUMMARY OF ARGUMENT
This Court issued a clear guideline for determining
the constitutionality of ballot access restrictions in Storer
v Brown, 415 US 724 (1974). At page 742, the Court wrote,
“In the context of California politics, could a reasonably
diligent independent candidate be expected to satisfy
the signature requirement, or will it be only rarely that
the unaffiliated candidate will succeed in getting on the
ballot? Past experience will be a helpful, if not always
an unerring, guide: it will be one thing if independent
candidates have qualified with some regularity and quite
a different matter if they have not.”
The Court repeated this teaching in Mandel v
Bradley, 432 U.S. 173 (1977). At page 177, it repeated the
Storer test, saying “The appropriate inquiry was set out in
Storer v Brown, supra, at 742.” The decision then quoted
the portion of Storer set forth in the preceding paragraph.
The Storer test is clear and objective. Nevertheless,
in recent years, some lower courts have not abided by that
test. This amicus describes lower court decisions that used
the Storer test, and lower court decisions that disregarded
it. Because there is disagreement in the lower courts over
whether to use the Storer test or not, this Court should
grant the writ, to resolve whether the Storer test is still
to be used or not.
The Ninth Circuit opinion acknowledges the usage
test: “Although the last independent candidate appeared
on California’s general election ballot in 1992, minor party
candidates have consistently appeared alongside major

7
party candidates.” The Ninth Circuit thereupon seemed
to merge minor party candidates with independent
candidates, when it considered the usage test, which is
contrary to this Court’s teaching in Storer v Brown,
supra , at p. 745, “But the political party and the
independent candidate approaches to political activity are
entirely different and neither is a satisfactory substitute
for the other.” Furthermore, the Ninth Circuit implication
that California has lenient procedures for minor parties
is factually incorrect. California has kept the presidential
candidate who came in third or fourth in the national
popular vote off its ballot in 1912, 1920, 1928, 1932, 1936,
1944, 1948, 1956, 1960, 1964, 1968, 1972, 1976, 1984, and
2004. In 2016, it kept Evan McMullin, who placed fifth and
polled 731,733 votes in the nation, off its ballot.
ARGUMENT
I.

CERTIORARI IS DESIRABLE BECAUSE THERE
IS CONFUSION AMONG LOWER COURTS OVER
WHETHER THE APPLY THE USAGE TEST.

Since 1977, many lower courts have followed the Storer
usage test:
Alabama: the Eleventh Circuit affirmed an unpublished
opinion of a U.S. District Court striking down the March
petition deadline for petitions for new parties and nonpresidential independent candidates in New Alliance
Party of Alabama v Hand, 933 F.2d 1568 (1991). The
Eleventh Circuit adopted the District Court’s opinion
as its own. It noted that since 1982, when that deadline
was created, only a small number of such petitions for
statewide office had succeeded.

8
Arkansas: a U.S. District Court struck down the
number of signatures for new parties to get on the ballot,
7% of the last gubernatorial vote, in American Party v
Jernigan, 424 F.Supp. 943 (e.d. Ark. 1977). The Court
noted on page 949, “Since the enactment of the seven
percent requirement (in 1971), no new political party has
been formed in the State of Arkansas.”
Arkansas (2): a U.S. District Court struck down the
number of signatures for new parties to get on the ballot,
3% of the last gubernatorial vote, in Citizens to Establish
a Reform Party in Arkansas v Priest, 970 F.Supp.690
(e.d.Ark. 1996). The Court noted in numbered paragraph
31, on page 695, that no new party had appeared on the
ballot since 1970, except for President, for which the new
party requirements were considerably easier and did not
require any petition.
Arkansas (3): a U.S. District Court enjoined the
number of signatures for new parties to get on the ballot,
3% of the last gubernatorial vote, in Libertarian Party
of Arkansas v Thurston, decision of July 3, 2019, case no.
e.d., 4:19cv-214. Numbered paragraphs 13-14 set forth
the fact that no new party ever qualified by petition in
Arkansas, except in the years 2007-2018 when the petition
was 10,000 signatures (no petition had been required
before 1971). The 2019 session of the legislature had
increased the requirement from 10,000 signatures to 3%
of the last gubernatorial vote (26,945 signatures) and that
requirement was enjoined in the 2019 lawsuit.
Georgia: the Eleventh Circuit evaluated the number
of signatures for new parties and independent presidential
candidates to get on the ballot for president in Bergland v

9
Harris, 767 F.2d 1551 (1985), a requirement of 2.5% of the
number of registered voters. On page 1555 the decision
quotes from the usage tests of Storer and Mandel. The
decision noted that the necessary historical data was not
in the record, and remanded the case to develop the usage
history. However, no meaningful further proceedings
were held in the case, because in 1986 the legislature
lowered the petition for all statewide office, minor party
and independent alike, to 1% of the registered voters. If
the record had been developed, it would have shown that
the 2.5% petition, which existed from 1979 through 1985,
had been used only twice, both times in 1980.
Georgia: as noted in the cert petition in this case, in
2016 a U.S. District Court struck down the petition of 1%
of the registered voters, for minor party and independent
presidential candidates, and in 2017 the Eleventh Circuit
confirmed. Green Party of Georgia v Kemp, 171 F.Supp.3d
1340 (n.d. 2016); 674 F, App’x 974 (2017). The decision notes
that in the years after 2000, no candidate had complied
with the requirement. 2
Illinois: the Seventh Circuit ruled in Lee v Keith, 463
F.3d 763 (2006) that the petition of 10% of the last vote
cast for independent candidates for state legislature was
unconstitutional. The decision notes on page 765 that the
requirement had been enacted in 1979, and except in 1980,
no independent candidate had ever complied with it.
2. The Ninth Circuit opinion says that the Georgia decision
is not in conflict with De La Fuente v Padilla, because in Georgia
there were no minor parties on the Georgia ballot. The Ninth
Circuit made a factual error. The Libertarian Party was on the
ballot in all statewide Georgia elections, for all statewide office,
1988 through the present. The New Alliance Party was on in 1988;
and the Reform Party was on in 1996 and 1998.

10
Maryland: after Mandel v Bradley, supra, was
remanded back to the U.S. District Court, the District
Court determined that in the years with a March petition
deadline, starting in 1969, no statewide independent had
managed to qualify, and struck down the March petition
deadline. There had been some successful petitions by
candidates for district office. Bradley v Mandel, 449
F.Supp.983 (1978).
Michigan: a U.S. District Court in 2016 enjoined the
statewide independent petition requirement of 30,000
signatures in Graveline v Johnson, 336 F.Supp.3d 801 (e.d.
Mi. 2018), affirmed, 747 Fed.App’x. 408 (Sixth circuit 2018).
Both courts noted that since the requirement had been
created in 1988, only two statewide independent petitions
had succeeded, both for president. None had succeeded
for statewide office other than president.
New York: a U.S. District Court in 1996 enjoined the
petition requirements for Republican Party delegates
to national party conventions. Rockefeller v Powers,
917 F.Supp. 155 (e.d.N.Y.). The Second Circuit affirmed
the decision, 78 F.3d 44 (Second Circuit, 1996). The
requirements were the lesser of 1,250 signers within a
U.S. House district, or 5% of the number of registered
voters in the party. The decisions noted that no Republican
slate of delegates had managed to qualify in most of the
state, except for the delegates pledged to Bob Dole, who
had the support of the party organization.
North Dakota: the Eighth Circuit struck down the
petition requirement for a new party, 15,000 signatures,
in McLain v Meier, 637 F.2d 1159 (1980), because it noted
that since the law had been created in 1939, only one group
had ever been able to complete that petition, in 1976.

11
Ohio: in 2006 the Sixth Circuit reversed a U.S.
District Court and struck down the petition deadline for
new parties, November of the year before the election,
in Libertarian Party of Ohio v Blackwell, 462 F.3d 579.
The decision noted on page 589 that no new parties had
qualified in 1992, 1994, 2002, and 2004.
Many other courts have chosen not to follow the usage
test, or have interpreted it to mean that even one or two
successes over a period of many years is good enough:
Alabama: a U.S. District Court, and the Eleventh
Circuit, both upheld the petition requirement for new
parties and non-presidential statewide candidates, in Stein
v Chapman, 774 F 3d 689 (2014). The requirement was 3%
of the last gubernatorial vote. Neither the unreported U.S.
District Court opinion, nor the Eleventh Circuit opinion,
noted that the statewide requirement had been in effect
since 1997 and had only been used once, in 2000.
Arizona: a U.S. District Court upheld the independent
presidential petition requirement of 3% of the number of
registered independents in De La Fuente v Hobbs, decision
of June 11, 2019, case no. 2:16cv-2419. The requirement
had been created in 1993. Currently, 3% of the number
of registered independent voters is approximately 1% of
all registered voters. The decision notes that only one
independent presidential candidate had successfully
completed the petition since the law had been created, so
it did acknowledge the Storer usage test. But it said that
was not significant because there had been no independent
presidential candidates of note. The decision ignored a
long list of significant presidential candidates who failed
to get on the Arizona ballot during those years, including

12
Ralph Nader in 2004, Evan McMullin in 2016, all of the
Constitution Party presidential nominees in the period
1996-2016, the Natural Law Party presidential nominee
in 1992 and 1996, and the Green Party nominee in 2004.
Florida: the Eleventh Circuit upheld the petition
requirement for new parties, 3% of the number of
registered voters, in Libertarian Party of Florida v State
of Florida, 710 F.2d 790 (1983). The requirement had
existed since 1970. The decision noted that the petition
had been used successfully by the American Party in both
1974 and 1976. Those had been the only two successful uses
of the procedure, but the court felt that two successful
instances in a period of twelve years satisfied the usage
test.
Georgia: the Eleventh Circuit upheld the petition
requirement for new party and independent candidates
for U.S. house, 5% of the number of registered voters
in Coffield v Kemp, 599 F.3d 1276 (2010). The decision
acknowledged on page 1277 that no petition for U.S. House
had succeeded in Georgia since 1964, but said perhaps
that is because no independent (except the plaintiff) had
attempted the petition.
Georgia(2): a U.S. District Court upheld the petition
for U.S. House, 5% of the number of registered voters, in
Cowen v Raffensperger, n.d., 1:17cv-4660. The evidence
showed that approximately twenty petitioning candidates
had attempted to qualify for U.S. House over the last few
decades, but no minor party candidate had ever qualified
in the history of the law (which was created in 1943), and
no independent had succeeded since 1964. The opinion
does not mention this usage history, although it does say,

13
“Thus, while Plaintiffs present a robust record and some
compelling arguments, the Court cannot ignore the fact
that similar challenges to the Georgia Election Code have
been rejected by higher courts.”
Hawaii: the Ninth Circuit upheld the petition
requirement for independent presidential candidates in
Nader v Cronin, 620 F.3d 1214 (2010), a petition of 1%
of the last presidential vote. The plaintiffs showed that
no independent presidential candidate had managed to
qualify since 1992, but the decision did not mention that
fact, or contain any information about how often the
requirement had been used.
Louisiana: the Fifth Circuit upheld the requirement
that a new party either have registration membership
of 5% of the state total, or that its presidential nominee
poll 5% of the vote in the last election, in Dart v Brown,
717 F.2d 1491 (1983). The lengthy decision did not include
the fact, which was in the evidence, that no group except
George Wallace’s American Party, in 1968, had ever met
either of these requirements.
North Carolina: the Fourth Circuit upheld the
requirement that an independent U.S. House candidate
submit a petition of 4% of the number of registered voters,
in Greene v Bartlett, unpublished decision of October 13,
2011, no. 10-2068. The requirement had existed since 1991.
The decision acknowledges the usage test but felt the fact
that one petition for U.S. House had succeeded satisfied
the usage test.
North Dakota: the Eighth Circuit upheld a requirement
that no party could nominate a candidate for the legislature

14
unless a number of voters equal to 1% of the population
had chosen the party’s ballot in the open primary, in
Libertarian Party of North Dakota v Jaeger, 659 F.3d
689 (2011). One percent of the population sometimes is
equivalent to 15% of the number of voters who cast a vote
in any party’s primary. The evidence showed that the law,
which had existed since 1925, had only been successfully
used once, by the American Party in 1976. The decision,
on page 703, acknowledges this point, and mentions the
usage test, but says perhaps the only reason no party
had surmounted the requirement is that no minor party
candidates (except for the plaintiff-candidates) had tried
and failed.
Oklahoma: the Tenth Circuit upheld a requirement
that a new party submit a petition of 5% of the last vote
cast in Arutunoff v Oklahoma State Election Board, 687
F.2d 1375 (1982). The requirement had existed since 1975
and had only been used once. The majority decision did
not mention this fact. The dissent did mention it, and also
pointed out that in the 30 years before 1975, when the
requirement had been 5,000 signatures, only once had
any party completed the petition.
Tennessee: the Sixth Circuit three times had the
lawsuit Green Party of Tennessee v Hargett before it. The
case concerned the petition for new parties, 2.5% of the
last gubernatorial vote, a law that has existed since 1972
and has never been used. The first two times, the Sixth
Circuit didn’t decide if the law were constitutional or not,
and remanded it for more fact-finding. In the U.S. District
Court, twice the law was held unconstitutional, based
largely on the usage test. But after the second remand, the
case went back to a different U.S. District Court Judge,

15
who upheld the law. The Sixth Circuit then refused to
disturb his opinion. Thus there were six opinions: (1) 882
F.Supp.2d 959, m.d. (Feb. 3, 2012); (2) 700 F.3d 816 (Nov.
30, 2012); (3) 953 F.Supp.2d 816, m.d. (June 17, 2013); (4)
767 F.3d 533 (Aug. 22, 2014); an unreported decision of
the U.S. District Court, m.d., 3:11cv-692 (Aug. 17, 2016);
an unreported decision of the Sixth Circuit, 16-6299 (May
11, 2017). The last two decisions, the ones that upheld the
law, did not mention that the law had never been used
successfully.
II. THE NINTH CIRCUIT ERRONEOUSLY STATED
THAT BECAUSE MINOR PARTY PRESIDENTIAL
CANDIDATES HAVE APPEARED ON THE
CALIFORNIA BALLOT, THEREFORE IT IS
NOT SIGNIFICANT THAT NO INDEPENDENT
PRESIDENTIAL CANDIDATE HAS QUALIFIED
SINCE 1992.
The Ninth Circuit opinion states, “Although the last
independent candidate appeared on California’s general
election ballot in 1992, minor party candidates have
consistently appeared alongside major party candidates.”
This conclusion is flawed for two reasons. The first is
that this Court said in Storer v Brown, supra, at p. 745,
“But the political party and the independent candidate
approaches to political activity are entirely different and
neither is a satisfactory substitute for the other.”
The second reason the Ninth Circuit sentence is flawed
is that California historically, and currently, has excluded
many minor party presidential candidates of significance
from its ballot. California has never had lenient ballot

16
access for minor party or independent presidential
candidates. 3
The original California ballot access law, passed in
18914 , required a petition for independent candidates, and
the nominees of previously unqualified parties of 5% of the
last vote cast. For the presidential election of 1892, this
required 12,115 signatures. In the entire nation in1892,
the total number of signatures to get on the ballot in all
states (using the easier method, independent or minor
party) was only 38,601 signatures. 5 California’s petition
burden was 38% of the entire national total, even though
California only cast 2.2% of the national presidential
vote in 1892. Ohio required the second highest number
of signatures, 7,957 (1% of the last vote cast). No other
state required more than 3,000 signatures. Although
the California ballot access laws were revised in various
ways after 1892, the state never had an easy requirement.
Consequently, through the years, many significant minor
party and independent candidates were excluded from the
California ballot, and this continues to the present time.

3. The Ninth Circuit opinion says, “De La Fuente’s own
expert suggested that ‘there’s almost nobody left (for independent
candidates) to petition”, but that quote, from a deposition, only
referred to the 1996 and 2000 elections, not to California elections
in general.
4. California Session Laws 1891, ch. 130, p. 166.
5. The number of signatures to get on the ballot for president
in each state, 1892 through 2004, can be seen in the Appendix of
an Election Law Journal article, “How Many Parties Ought to
be on the Ballot?”, page 170, in Volume 5, number 2, 2006. The
Appendix is on pages 194-197.

17
However, California law has generally made it easy
for a party that was already on the ballot to continue to
be ballot-qualified, which has ameliorated the difficult
requirements for a new party to get on the ballot, to a
certain extent. For example, California still recognizes
the American Independent Party, which was put on
the ballot in 1967 in order to enable George Wallace to
run for President. Wallace created new parties in many
states for his presidential run, but none of his state
parties outside California continues to be on the ballot.
Also, the Prohibition Party continued to be on the ballot
continuously in California before the government-printed
ballot came into existence, through all elections until
1964. It was disqualified in 1964 because its registration
had dropped below one-fifteenth of 1% of the state total. 6
In 1912, Republican nominee William Howard Taft
was excluded from the California ballot, because in
September the state Republican Party chose presidential
elector candidates pledged to Theodore Roosevelt, even
though the national Republican convention had chosen
Taft.7 In order for Taft to qualify as an independent
in 1912, he would have needed 11,570 signatures, due
September 26 (40 days before the election). He did not
complete this petition, and instead filed for write-in status.
6. See the Secretary of State’s publication Report of
Registration, January 1964, “Preface” page.
7. See page 185, The California Progressives, by George E.
Mowry (1951: U.C. at Berkeley Press). The Progressive Party
decided not to use the petition procedure to qualify Roosevelt as
the Progressive nominee in California because, under California
election laws, the Roosevelt slate of presidential electors would
have been placed in an unfavorable position on the ballot.

18
In 1920, the new Farmer-Labor Party, modeled on
the British Labour Party, ran Parley P. Christensen for
President. Even though he placed fourth in the nation, he
did not qualify for the California ballot. He would have
needed 20,651 signatures. 8
In 1924, Robert La Follette, who placed third in the
nation and won the electoral votes of Wisconsin, ran as
an independent progressive presidential candidate. He
attempted to petition in California, but the State Supreme
Court ruled that the independent petition procedure could
not be used for presidential elections 9. The Socialist Party
was already on the ballot, and it nominated La Follette,
so he did appear on the ballot, but La Follette proclaimed
throughout his campaign that he was not a socialist, and
he was uncomfortable that California voters could not vote
for him except under the “Socialist” label. California is
the only state in which voters couldn’t vote for La Follette
except under that label (although there was one state in
which he was not on the ballot at all, Louisiana, although
Louisiana voters could write him in).
8. See A Statistical History of the American Presidential
Elections by Svend Petersen (1963: Frederick Unger Publishing
Co.) for election returns for all presidential elections through 1960.
For more recent years, see any edition of America Votes (authors
variously Richard Scammon, then Rhodes Cook). A new version
of America Votes is published every two years, and all volumes
have complete presidential national vote totals back to 1960. Also
starting in 1980 the Federal Election Commission had published
presidential and congressionalelection returns, in volumes that
appear every two years. The title is always Federal Elections
followed by a particular election year.
9. Spreckles v Graham, 194 C. 516 (1924). In 1927 the
leg islature amended the law to provide for independent
presidential candidates.

19
In 1928, William Z. Foster, the Communist Party
nominee for President, placed fourth in the national
popular vote, but was unable to get on in California.
In 1932, again, William Z. Foster placed fourth, but
again he was not on in California.
In 1936, Congressman William Lemke ran as the
presidential nominee of the new Union Party, and he
placed third, but he was unable to get on the California
ballot.
In 1944, Norman Thomas, Socialist Party nominee,
placed third in the nation, but was unable to get on in
California.
In 1948, Strom Thurmond placed third in the national
popular vote, but he was unable to get on in California,
although generally he did not try to get on the ballot in
states outside the South.
In 1956, independent conservative T. Coleman
Andrews placed third in the nation, but was unable to get
on in California.
In 1960, Eric Hass, Socialist Labor Party nominee,
placed third among all declared candidates in the nation,
but was unable to get on in California.
In 1964, again, Eric Hass placed third, but was not
on in California.
In 1968, Henning Blomen, Socialist Labor nominee,
placed fourth but was not on in California.

20
In 1976, independent candidate Eugene McCarthy
placed third but was unable to get on the California ballot.
In 1984, independent candidate Lyndon LaRouche
placed fourth in the nation but did not qualify in California.
In 2004, independent candidate Ralph Nader placed
third in the nation but did not qualify in California.
In 2016, independent Evan McMullin placed fifth, with
731,733 votes, but did not qualify in California.
In 2019, a new party, the Common Sense Party, headed
by former Republican Congressman Tom Campbell,
attempted to qualify in California, but failed to do so by
the October 2, 2019 deadline. However, California has a
later deadline for parties that only want to qualify for the
presidential ballot, and it is possible the party will qualify
for that office later.
CONCLUSION
A free election requires that voters be permitted
to vote for the candidate of their choice. In 1990 the
United States signed the Copenhagen Document of the
Conference on the Human Dimension of the CSCE. The
United States, and certain other nations, agreed “to
respect the right of citizens to seek political or public
office, individually or as representatives of political parties
or organizations, without discrimination.”10

10. Point 7.5 of the Document, which can be seen at osce.org/
documents/odihr/2006/06/19392_en.pdf

21
This Court’s Storer usage test provides an excellent
method for courts to determine whether ballot access laws
are too severe or not. This Court should grant the writ and
should set forth its opinion on whether the usage test is
still to be used to adjudicate ballot access cases. It should
also grant the writ because despite the dozens of ballot
access constitutional lawsuits filed every election year,
this Court has not taken a ballot access case brought by
a new or minor party, or an independent candidate, since
it agreed to hear Norman v Reed, 502 U.S. 279, in 1991.
For these reasons, Amici respectfully urge this Court
to hear De La Fuente v. Padilla.
Respectfully Submitted,
A licia I. Dearn, Esq.
Counsel of Record
231 South Bemiston Ave,
Suite 850
Clayton, MO 63105
(314) 300-7041
aliciadearn@bellatrixlaw.com
Counsel for Amici Curiae

